Joa
I

OCKLE

2311 Douglas Street CA i E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tele contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-1212

CHAD F. WOLF, ACTING SECRETARY
OF HOMELAND SECURITY, ET AL.,
Petitioners,
v.
INNOVATION LAW LAB, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR AMICUS
CURIAE AMERICAN BAR ASSOCIATION IN SUPPORT OF RESPONDENTS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5604 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 21st day of January, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

 

My Comm. Exp. September 5, 2023

 

GENERAL MOTARY-State of Nebraska &K Ohh
RENEE J. GOSS 9. ( Deedee :

Notary Public Affiant 40461
